AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Inspections




  Inspection Report

 Reporting of Security Incidents
 at the Lawrence Livermore National
 Laboratory




 DOE/IG-0625                                November 2003
•     Did not take timely compensatory measures to mitigate the potential vulnerabilities
      resulting from the missing master keys and master Tesa card.

During our review we learned that during a May 2003 inventory, Livermore officials
identified an additional three master keys and two master Tesa cards that were missing.
Although two of the three master keys had been reported missing by the Livermore Fire
Department to the Protective Force Division more than three years before, the Protective
Force Division took no action to inventory the keys or determine why the two keys were
missing. Recent DOE and Livermore oversight reviews of Livermore’s safeguard and
security operations did not identify internal control weaknesses related to the control and
inventory of master keys and master Tesa cards.

As a result of the potential security vulnerabilities caused by the missing master keys,
Livermore eventually initiated actions to repla ce or upgrade locks at significant cost.
Livermore officials initially estimated the cost to replace or upgrade the locks as $1.7
million. This figure was challenged upon release of our draft report. However, as of the date
of this report, officials of the National Nuclear Security Administration (NNSA) have not
provided a different cost figure. Ultimately, Federal taxpayers will bear this cost. We
believe that Livermore failed to ensure compliance with established internal controls over the
master keys and master Tesa cards, and as such, we question the allowability of these costs.

MANAGEMENT REACTION

Management did not specifically state concurrence with our recommendations. However,
management identified corrective actions that NNSA believes are responsive to our
recommendations. These actions include implementing additional procedures and training.

Although this is a good first step, management needs to do more to assure that Livermore
places greater emphasis on the need to strictly follow its processes and procedures for
accountability and control of security keys. Management stated that such processes are
captured in site security surveys and self-assessments, but acknowledged that they were not
followed in these cases. Similarly, an October 14, 2003, press article reported that a gate to a
limited security area at the Laboratory, a secured facility, was left unlocked. In our view, this
latest incident only serves to reinforce the need for greater commitment by Laboratory
management and personnel to prevent security incidents, and when they occur, to report and
resolve them promptly.

Attachment

cc:    Deputy Secretary
       Administrator, National Nuclear Security Administration
       Under Secretary for Energy, Science and Environment
       Manager, Livermore Site Office
       Director, Policy and Internal Controls Management
REPORTING OF SECURITY INCIDENTS AT THE LAWRENCE
LIVERMORE NATIONAL LABORATORY


TABLE OF
CONTENTS


              OVERVIEW

              Introduction and Objectives                   1

              Observations and Conclusions                  2


              DETAILS OF FINDINGS                           4

              Reporting Thresholds for Security Incidents   4

              Reporting Security Incidents to DOE/NNSA      5

              Additional Missing Keys                       6

              Security Risk Assessments                     7

              Compensatory Measures                         7

              Performance Measures                          9

              Oversight Reviews                             9


              RECOMMENDATIONS                               10

              MANAGEMENT COMMENTS                           11

              INSPECTOR COMMENTS                            12


              APPENDICES

              A. Scope and Methodology                      13

              B. Management Comments                        14
Overview

INTRODUCTION AND   Lawrence Livermore National Laboratory (Livermore) performs
OBJECTIVES         research and development activities in support of national defense
                   that require the highest levels of security. The University of
                   California (UC) manages and operates Livermore under contract
                   with the Department of Energy (DOE), which includes the
                   National Nuclear Security Administration (NNSA).

                   On May 13, 2003, Livermore officials issued a Press Release
                   stating that a set of master keys assigned to a Livermore Protective
                   Force Officer had been discovered missing on April 17, 2003.
                   Later, on May 30, 2003, a Livermore official announced to
                   employees that a master Tesa card, which is a plastic card- like key
                   with a magnetic strip, had been discovered missing on April 12,
                   2003.
                   Keys and electronic entry cards are an essential component of the
                   system of access controls at Livermore and other DOE sites.
                   Unique keys and cards, by their nature, serve to restrict access by
                   unauthorized individuals to specific areas that may contain
                   classified information and materials, sensitive program, project or
                   proprietary information, or the personal belongings of Laboratory
                   employees. Master keys and cards, on the other hand, control
                   access to a significant number of the facilities, buildings and
                   offices at Livermore. Their distribution is restricted to a limited
                   number of personnel in order to ensure the integrity of the unique
                   key and card access control component.

                   The objectives of this inspection were to determine: (1) the
                   adequacy of internal controls at Livermore over the timely and
                   appropriate reporting of security incidents such as the missing
                   master keys and master Tesa cards, and the identification and
                   correction of corresponding potential security vulnerabilities; and
                   (2) if performance measures exist at Livermore that adequately
                   address the reporting of such incidents.




Page 1                        Inspection of Reporting of Security Incidents at the
                              Lawrence Livermore National Laboratory
OBSERVATIONS AND   We concluded that Livermore did not have adequate internal
CONCLUSIONS        controls to ensure that security incidents involving missing master
                   keys and master Tesa cards were reported within required
                   timeframes, and that timely follow-up actions were taken to identify
                   and address potential security vulnerabilities resulting from the
                   incidents.

                   Specifically, we found that Livermore security officials:

                      •   Misinterpreted fundamental DOE reporting requirements for
                          security incidents, and did not immediately recognize the
                          significant security implications of the missing master keys
                          and master Tesa card;

                      •   Did not report the security incidents involving the missing
                          master keys and master Tesa card to DOE/NNSA within
                          required timeframes;

                      •   Did not immediately assess potential security risks to identify
                          vulnerabilities resulting from the missing master keys and
                          master Tesa card; and

                      •   Did not take timely compensatory measures to mitigate the
                          potential vulnerabilities resulting from the missing master
                          keys and master Tesa card.

                   During our review we learned that Livermore officials initiated a
                   complete inventory in May 2003, to determine the status of all
                   master keys and master Tesa cards at Livermore. The inventory
                   disclosed that an additional three master keys and two master Tesa
                   cards were missing. This brought the total number of missing master
                   keys to nine, and the total number of missing master Tesa cards to
                   three. Two of the three missing master keys were from a set of keys
                   that the Livermore Protective Force Division set aside for use by the
                   Livermore Fire Department. A Fire Department official told us that
                   the two master keys had been reported missing to the Protective
                   Force Division over three years ago. However, the Protective Force
                   Division took no action to inventory the keys or determine why the
                   two keys were missing. We were told that at that time, the view of
                   the Protective Force Division was that the set of keys contained
                   fewer master keys than were typically found on other sets of keys,
                   not that any master keys were missing.




Page 2                                              Observations and Conclusions
         Although keys and cards are only one component of the system of
         access controls at Livermore, the loss of the master keys and master
         Tesa cards affected the level of security afforded classified and
         sensitive areas at Livermore. As a result of the potential security
         vulnerabilities caused by the missing master keys, Livermore
         eventually initiated actions to replace or upgrade locks at significant
         cost. We were initially advised by Livermore officials that the
         estimated cost to replace or upgr ade the locks was $1.7 million.
         Commenting on our draft report, NNSA officials did not believe the
         cost estimate was consistent with the Laboratory’s expenditures or
         numbers of locks to be replaced. However, as of the date of this
         report, NNSA officials had not provided a revised cost figure.
         Ultimately, Federal taxpayers will bear this cost. We believe that
         Livermore failed to ensure compliance with established internal
         controls over the master keys and master Tesa cards. Therefore, we
         question the allowability of these costs.




Page 3                                     Observations and Conclusions
Details of Findings

REPORTING             We found that Livermore security officials misinterpreted
THRESHOLDS FOR        fundamental DOE reporting requirements for security incidents,
SECURITY INCIDENTS    and did not immediately recognize the significant security
                      implications of the missing master keys and master Tesa card.

Reporting             DOE Notice 471.3, “Reporting Incidents of Security Concern,”
Requirements          establishes four reporting thresholds for incidents of a security
                      concern under an Impact Measurement Index (IMI) system. The
                      highest reporting threshold, IMI-1, is for “Any security incident
                      that can be expected to cause serious damage to national security
                      or DOE security interests.” The lowest reporting threshold, IMI-4,
                      is for “Any security incident that causes no damage to national
                      security, but that can, in combination, indicate weakened security
                      awareness or inadequate procedures or practices.”

                      At Livermore, the Safeguards and Security Department's Office of
                      Incidents and Infractions is the responsible entity for reporting
                      security incidents to DOE in accordance with DOE Notice 471.3.
                      This office relies, in part, on the Protective Force Division
                      providing reports on individual incidents that have occurred at
                      Livermore so that a reporting determination under DOE Notice
                      471.3 can be made.

                      A Livermore security official informed us that on two occasions
                      immediately following the loss of the set of master keys on
                      April 17, 2003, a review was conducted of the security incident
                      reporting criteria. According to the official, the reviews did not
                      identify a need to report the loss of the master keys to DOE. The
                      official said that another Livermore security employee discussed
                      the loss of the keys with Livermore’s Office of Incidents and
                      Infractions and was told by that office that the loss of the master
                      keys did not require reporting to DOE. According to an employee
                      in the Office of Incidents and Infractions, his review of the IMI
                      reporting categories in the DOE Notice did not identify a specific
                      reference to “missing master keys,” but it was unclear in his mind
                      whether or not the loss of the keys was reportable.

                      The loss of a master Tesa card on April 12, 2003, was not
                      reviewed by the Office of Incidents and Infractions for reporting
                      under DOE Notice 471.3 until the office received an Incident
                      Report from the Protective Force Division on or about May 30,
                      2003. The loss of the master Tesa card was reported at that time as
                      an IMI-4 incident.




Page 4                                                              Details of Findings
Security Implications              Although the set of master keys and the master Tesa card opened
                                   locks leading to some of the most sensitive areas of the Laboratory,
                                   Protective Force Division officials did not perceive the loss as having
                                   the potential to cause damage to national security or DOE security
                                   interests. A Protective Force Division official advised us that they had
                                   lost keys before and that the keys had always turned up. The official
                                   told us that when the set of master keys did not turn up after a few
                                   days of extensive searching, the Protective Force Division became
                                   involved in other security issues and did not focus on the security
                                   implications of the missing keys. In addition, the official stated that
                                   the Protective Force Division was not aware that during the period that
                                   the master keys were missing, a master Tesa card was also missing.
                                   The Protective Force Division did not consider the security
                                   implications of the double failure 1 resulting from the two types of
                                   master keys (i.e., keys and Tesa card) being missing at the same time.

                                   After Livermore senior management became aware of the missing
                                   master keys on May 5, 2003, the Office of Incidents and Infractions
                                   classified the incident at the lowest reporting threshold, IMI-4, that is,
                                   a security incident “that causes no damage to national security.” It
                                   was not until the intervention of a senior NNSA official on May 9,
                                   2003, that the Office of Incidents and Infractions re-evaluated the
                                   incident and reclassified it as an IMI-2, which is defined as “Any
                                   security incident that can be expected to cause damage to national
                                   security or DOE security interests.”

REPORTING                          We found that Livermore security officials did not report the
SECURITY INCIDENTS                 security incidents involving the missing master keys and master
TO DOE/NNSA                        Tesa card to DOE/NNSA within required timeframes.

DOE Notice                         DOE Notice 471.3 states that a facility has 24 hours to determine if
                                   a security incident should be reported. If the incident should be
                                   reported, it must be categorized under the IMI system. The most
                                   serious category of security incidents, IMI-1, must be reported to
                                   DOE within one hour after categorization; IMI-2 and IMI-3
                                   incidents must be reported within 8 hours; and summaries of IMI-4
                                   incidents are to be reported monthly.

                                   However, these incidents were not reported to DOE/NNSA until
                                   weeks after they were first recognized. Specifically:

                                   •   The master Tesa card discovered missing on April 12, 2003,
                                       was not reported to DOE/NNSA until May 30, 2003.

1
  A double failure occurs when the two primary types of security locks protecting the same area are compromised at
the same time.



Page 5                                                                                   Details of Findings
               •   The set of six master keys discovered missing on April 17,
                   2003, was not reported to DOE/NNSA until May 5, 2003.

               We learned that Protective Force Division officials had no
               immediate plans of reporting the missing keys to Livermore
               management or DOE. A Protective Force Division official advised
               us that the issue of the missing keys was on a list of things to
               discuss with higher management, but the issue was never
               discussed. The missing keys went unreported until May 5, 2003,
               when an alert employee in the Livermore Locks and Keys Shop
               became aware of an attempt by the Protective Force Division to
               have a duplicate set of the master keys made to replace the missing
               set, and promptly alerted security officials in the Safeguards and
               Security Department of the missing master keys.

               Similarly, the missing master Tesa card went unreported until
               May 30, 2003. Although the Protective Force Division Incident
               Report was dated April 12, 2003, the Office of Incidents and
               Infractions did not receive the report until an employee in the
               Safety, Security and Environmental Protection Directorate alerted
               senior Livermore management about the missing master Tesa card.

ADDITIONAL     We found that Livermore security officials could not determine
MISSING KEYS   how long other master keys and master Tesa cards had been
               missing.

               In May 2003, Livermore security officials initiated a complete
               inventory to determine the status of all master keys and master Tesa
               cards. The inventory disclosed that an additional three master keys
               and two master Tesa cards were missing. Two of the three missing
               master keys were on a set of keys used by the Livermore Fire
               Department. A Fire Department official told us that the two master
               keys had been reported missing to the Protective Force Division over
               three years ago. However, the Protective Force Division took no
               action to inventory the keys or determine why the two keys were
               missing. At that time, the view of the Protective Force Division was
               that the set of keys contained fewer master keys than were typically
               found on other sets of keys, not that any master keys were missing.

               The two missing master Tesa cards had been placed in storage by
               the Protective Force Division. The Protective Force Division
               could not locate the two master Tesa cards during the inventory.

               Livermore security officials were unable to ascertain when the
               master keys and master Tesa cards were lost. Based on our review,
               we concluded that Livermore did not have adequate inventory



Page 6                                                       Details of Findings
                controls over its master keys and master Tesa cards. We consider
                such controls to be a fundamental part of the security regime at an
                institution like Livermore that is responsible for conducting highly
                classified and sensitive activities in support of national defense.
                Upon completion of the May 2003 inventory, Livermore officials
                notified DOE/NNSA of the additional missing master keys and
                master Tesa cards.

SECURITY RISK   We found that Livermore security officials did not immediately
ASSESSMENTS     assess potential security risks to identify vulnerabilities resulting
                from the missing master keys and master Tesa card.

                The master keys were missing for over two weeks before any
                consideration was given to assessing potential security risks to
                identify possible vulnerabilities. On May 6, 2003, a Safeguards
                and Security Department official directed that a risk assessment be
                conducted, which included the most sensitive areas of the
                Laboratory. A Livermore Safeguards and Security Department
                official then directed the conduct of a second risk assessment that
                included national security assets such as classified matter,
                unclassified controlled nuclear information, high explosives,
                biological assets, Category IV Special Nuclear Material (SNM)
                and firearms.

                The master Tesa card was missing for 32 days before a notification
                was made to Livermore program officials. On May 14, 2003,
                Safeguards and Security Department officials informed Laboratory
                program officials of the loss and the need for assessing potential
                security risks. During this meeting the security implications of the
                double failure were discussed for the first time, one month after the
                double failure condition occurred.

COMPENSATORY    We found that Livermore security officials did not take timely
MEASURES        compensatory measures to mitigate the potential vulnerabilities
                resulting from the missing master keys and master Tesa card.

                Protective Force Division officials took no compensatory measures
                to address potential security vulnerabilities associated with the
                missing master keys and master Tesa card prior to May 6, 2003. A
                Protective Force Division official advised us that they were not
                aware of the double failure resulting from the combination of the
                missing master keys and master Tesa card until a meeting in early
                May 2003. However, the official said that compensatory measures
                should have been taken with respect to the missing master keys
                anyway. According to the official, the focus at the time was on
                finding the keys, and that when the keys were not found, their



Page 7                                                           Details of Findings
                                    focus changed to other protective force issues and they did not
                                    address the issue of compensatory measures.

                                    Short-term compensatory measures, which were the result of
                                    intervention by Livermore management outside the Protective
                                    Force Division, were not initiated until May 6, 2003. These
                                    measures, which consisted of block-out blades, door seals, re-
                                    keying, suspension of the day- lock-rule 2 , and installation of
                                    additional Tesa locks, were completed a month or more after the
                                    master keys and master Tesa card were discovered missing.

                                    The dates of discovery of the respective missing master keys and
                                    master Tesa cards and the dates they were reported to DOE/NNSA
                                    as missing are shown in Figure 1.

                                             Summary of Missing Master Keys and Tesa Cards



                                                 Type of                  Date                   Date
                                                  Key                    Missing                Reported

                                            1 Master Tesa          April 12, 2003           May 30, 2003
                                            6 Master Keys          April 17, 2003           May 5, 2003
                                            2 Master Keys          3 or more years 3        May 30, 2003
                                            1 Master Key           Indeterminate            May 31, 2003
                                                                   Period
                                            2 Master Tesa          Indeterminate            June 2, 2003
                                                                   Period

                                                                        Figure 1

Corrective                          We were advised by an NNSA official that on June 12, 2003, the
Action Plans                        NNSA Livermore Site Office issued three major findings to
                                    Livermore related to security locks and keys. We were also advised
                                    that by July 2003, formal corrective action plans to correct
                                    vulnerabilities in security incident reporting and security key
                                    control and inventory procedures were in place. According to the
                                    NNSA official, Livermore ha s completed several corrective action
                                    plan milestones, which will be validated by the Livermore Site
                                    Office by the end of December 2003.

2
  The day-lock-rule allows classified materials to be left unattended for brief periods provided that other security
measures (i.e. items secured in a locked room) are in place to prevent unauthorized access.
3
  Keys reported by the Livermore Fire Department as missing more than three years ago.



Page 8                                                                                       Details of Findings
Cost of Lock   With reliance on a complex lock, key, and Tesa card security
Replacement    strategy at Livermore to prevent access to classified and sensitive
               areas, there is little doubt that the level of security afforded these
               areas was adversely affected. Livermore officials initially advised
               us that, in the long-term, the loss of the master keys would require
               the replacement and upgrade of approximately 100,000 locks in
               both classified and unclassified areas within 526 buildings. They
               also initially estimated the total cost of this lock replacement
               project, which also includes upgrading existing locks, at
               approximately $1.7 million. However, as of the date of this report,
               NNSA officials had not validated this figure as accurate.

               UC is required by Clause I.062 of its contract with DOE to have
               methods and procedures in place to reasonably ensure that the
               mission and functions assigned to the contractor are efficiently and
               properly executed, and that resources are safeguarded against
               waste, loss, and mismanagement. As reported by an internal
               Livermore review team, Livermore violated its internal control
               procedures for the control and accountability of master keys. This
               resulted in the need to replace and upgrade locks, and take other
               compensatory measures. We were told that prior to the loss of the
               master keys in April 2003, no such lock replacement project had
               been planned. Based on Livermore’s failure to exercise due
               diligence in performing its contractual responsibilities, we question
               whether these costs are allowable.

PERFORMANCE    Our review of the contractor performance self-assessment criteria
MEASURES       for Fiscal Year 2003 revealed that a specific statement to “Conduct
               analysis of [the] incident pertaining to key control and
               accountability” was added to the Livermore Safeguards and
               Security Assessment Management Plan in June 2003. We were
               told by a senior NNSA Livermore Site Office official that a
               Livermore self-assessment performance review of the results of
               Fiscal Year 2003 Safeguards and Security operations will be
               conducted and that it will include the missing key incidents
               detailed in this report.

OVERSIGHT      Recent DOE and Livermore oversight reviews of Livermore’s
REVIEWS        safeguards and security operations prior to the disclosure of the
               missing master keys and missing ma ster Tesa card, did not identify
               internal control weaknesses related to the control and inventory of
               master keys and master Tesa cards. Guides developed by various
               organizations to plan and conduct these reviews suggest that processes
               should be reviewed to determine whether procedures are in place to
               adequately control keys and locks. However, none of these oversight
               reviews identified the key control and inventory weaknesses at



Page 9                                                         Details of Findings
                  Livermore that allowed master keys and Tesa cards to go missing for
                  an extended period of time without detection.

                  Several security surveys and self-assessments performed by NNSA
                  and Livermore since 2000 did not report any issues relating to key
                  control and inventories. These reviews consistently rated topical areas
                  that included key control and inventories as “satisfactory.” Although a
                  2003 security survey verified the existence of lock and key records and
                  procedures, the survey did not evaluate the accuracy or effective ness
                  of the records and procedures in controlling and accounting for keys.

                  In comments to our draft report, the NNSA Associate
                  Administrator for Management and Administration stated that
                  although NNSA believes the processes in place related to the
                  security of keys are captured in the surveys and self- assessments,
                  the established processes and procedures were not followed. He
                  stated that NNSA will provide a copy of our recommendations and
                  NNSA’s expectations to the Site Office Managers for their
                  inclusion in their respective oversight processes.

                  We believe that future field site security surveys and self-assessments
                  should include a review of internal controls relating to the issuance,
                  receipt, and inventory of keys that provide access to sensitive areas.

                  We noted that a 2002 DOE assessment of physical security systems at
                  Livermore included a review of barriers protecting special nuclear
                  material facilities. The missing master keys and Tesa cards accessed
                  locks in some of these facilities. The assessment report was silent
                  regarding whether master keys and Tesa cards were included in the
                  review. However, Livermore physical security systems received a
                  rating of “EFFECTIVE PERFORMANCE.”

RECOMMENDATIONS   We recommend that the Administrator, National Nuclear Security
                  Administration:

                  1. Ensure that field site security surveys and self-assessments
                     include a review of internal controls relating to the issuance,
                     receipt, and inventory of all keys involving sensitive areas.

                  We also recommend that the Manager, Livermore Site Office:

                  2. Review the costs incurred by Livermore to replace and upgrade
                     approximately 100,000 locks necessitated by the missing
                     master keys and master Tesa cards, to determine whether the
                     costs are reasonable and allowable.



Page 10                                                         Recommendations
             3. Ensure that Livermore establishes appropriate internal controls
                to correctly identify reportable incidents, and that such
                incidents are reported in a timely manner.

             4. Ensure that Livermore officials responsible for categorizing
                incidents reportable under DOE Notice 471.3 are trained to
                properly determine the appropriate IMI classification level of
                security incidents.

             5. Ensure that internal controls are established by Livermore that
                promote the timely assessment of vulnerabilities resulting from
                security incidents, and the prompt implementation of
                compensatory measures.

             6. Ensure that Livermore has established appropriate internal
                controls for the management and inventory of master keys and
                master Tesa cards.

MANAGEMENT   In comments to our draft report, the NNSA Associate
COMMENTS     Administrator for Management and Administration stated that
             the report is consistent with the findings of Laboratory, Livermore
             Site Office, University of California and NNSA reviews of the
             security locks and keys incidents. While the Associate
             Administrator did not specifically state concurrence with our
             recommendations, he identified corrective actions taken by the
             Livermore Site Office and the Laboratory that he believed were
             responsive to our recommendations.

             Regarding recommendation 1, the Associate Administrator
             acknowledged that while processes related to security of keys are
             captured in surveys and self-assessments, the established policies
             and procedures were not being followed. He stated that NNSA
             will provide a copy of our recommendations and NNSA’s
             expectations to the Site Office Managers for their inclusion in their
             respective oversight processes.

             Regarding recommendation 2, the Associate Administrator stated
             that the contracting officer already determined that the costs
             incurred to change the locks are allowable and reasonable under
             the terms of the contract, and NNSA did not believe that the matter
             requires an “Allowability of Cost Determination.” However, he
             advised that NNSA is requesting a General Counsel opinion as to
             what warrants an “Allowability of Cost Determination.” In
             addition, the Associate Administrator did not believe the $1.7
             million figure stated in our draft report to replace or upgrade



Page 11                                             Management Comments
            approximately 100,000 locks was consistent with the Laboratory’s
            expenditures or number of locks being replaced. The Associate
            Administrator did not provide figures for the actual cost and
            numbers of locks to be replaced. In addition, as of the date of this
            report, NNSA has not provided these figures.

            Regarding recommendations 3, 4, 5, and 6, the Associate
            Administrator identified ongoing and completed corrective actions
            taken by the Livermore Site Office and Laboratory management
            that he felt were responsive to our recommendations.

            The complete text of management’s comments are attached at
            Appendix B.

INSPECTOR   Management’s actions appear responsive to the report
COMMENTS    recommendations. However, we do not agree that the total cost of
            replacing and upgrading the locks are “part of the normal cost of
            doing business.” Livermore did not follow its internal procedures
            for the control and accountability of master keys and master Tesa
            cards, which created a security vulnerability that resulted in the
            need to replace and upgrade a significant number of locks. By not
            complying with its contractual responsibilities, the Laboratory
            unnecessarily incurred a substantial cost that we believe is
            unallowable and should not be borne by the taxpayer.

            Management identified actions implemented by the Livermore Site
            Office and the Laboratory to ensure proper reporting of incidents
            such as the missing master keys and master Tesa cards. These
            actions included implementation of additional procedures and
            training. We believe these actions are a good first step to address
            the problems discussed in our report. However, as acknowledged
            by the Associate Administrator, in specific instances established
            processes and procedures were not followed. Therefore, in
            addition to issuing additional procedures, we believe management
            should assure that a culture exists wherein individuals will fully
            implement the procedures.




Page 12                                                 Inspector Comments
Appendix A

SCOPE AND     The fieldwork for this inspection was conducted between May and
METHODOLOGY   July 2003. We interviewed numerous Livermore and NNSA
              Livermore Site Office officials regarding their knowledge of the
              missing master keys and master Tesa cards. We also reviewed
              available documentation from the Livermore internal and external
              review teams that evaluated the missing master key and master
              Tesa card incidents. The documentation that we reviewed
              included:

                 •   Incident Assessment Team Report: Key Incident of
                     April 17, 2003.
                 •   Independent External Review Team “Report on the
                     Lawrence Livermore National Laboratory Security Key
                     Incident.”
                 •   Incident Analysis Team Report dated May 30, 2003.
                 •   Master Tesa Inventory Process Report (Revision 1),
                     dated June 6, 2003.
                 •   Lawrence Livermore National Laboratory “Locks and Keys
                     Guide.”
                 •   Fiscal Year 2003 Appendix F, Performance Assessment
                     Mid-Year Review.
                 •   Integrated Safeguards and Security Management Project
                     Plan, dated December 14, 2001.
                 •   LLNL Implementation Guidelines for Fiscal Year 2003
                     Appendix F Performance Objectives and Measures.

              We also reviewed the contract between DOE and the University of
              California for the management and operation of Lawrence
              Livermore National Laboratory, as well as:

                 •   DOE Notice 471.3, “Reporting Incidents of Security
                     Concern.”
                 •   DOE Notice 473.8, “Security Conditions.”

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 13                                               Scope and Methodology
Appendix B




Page 14      Management Comments
Page 15   Management Comments
Page 16   Management Comments
Page 17   Management Comments
                                                                    IG Report No. DOE/IG-0625

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Ene rgy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
